Office of Audits
Report No. AUD-12-003


Material Loss Review of Atlantic Southern
Bank, Macon, Georgia




                              December 2011
                                       Executive Summary

                                       Material Loss Review of Atlantic Southern Bank,
                                       Macon, Georgia
                                                                                        Report No. AUD-12-003
                                                                                               December 2011

Why We Did The Audit
On May 20, 2011, the Georgia Department of Banking and Finance (GDBF) closed Atlantic Southern Bank
(ASB), Macon, Georgia. On June 17, 2011, the FDIC notified the Office of Inspector General (OIG) that
ASB’s total assets at closing were $726 million and the estimated loss to the Deposit Insurance Fund (DIF)
was $273.5 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a material loss
review of the failure of ASB.

The objectives of the review were to (1) determine the causes of ASB’s failure and the resulting loss to the DIF
and (2) evaluate the FDIC’s supervision of ASB, including the FDIC’s implementation of the Prompt
Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background
ASB was established in December 2001 as a state nonmember institution called New Southern Bank. In 2005,
the bank changed its name to ASB. The bank was wholly owned by the Atlantic Southern Financial Group,
Inc., a publicly-traded, one-bank holding company. As of June 2010, ASB’s directorate owned or controlled
19.5 percent of the holding company’s outstanding stock, with the remainder of the stock widely held.

In 2006 and 2007, ASB expanded its geographic presence in central and southern Georgia to the growing
markets of coastal Georgia and northern Florida. The bank’s expansion was facilitated by the acquisition of
three institutions: Sapelo National Bank (with total assets of $64 million), First Community Bank of Georgia
(with total assets of $70 million), and CenterState Bank Mid Florida (with total assets of $100 million). ASB’s
lending strategy focused on acquisition, development, and construction (ADC) and other commercial real
estate (CRE) projects. At the time of its closure, ASB operated a main office in Macon, Georgia, and 15
branches in central, southern, and coastal Georgia. The bank also operated one branch in Jacksonville, Florida.


Audit Results
Causes of Failure and Material Loss

ASB failed primarily because its Board of Directors (Board) and management did not effectively manage the
risks associated with the institution’s aggressive growth and heavy concentration in CRE loans, particularly
ADC loans. Notably, ASB did not maintain capital at levels that were commensurate with the increasing risk
in its loan portfolio, reducing the institution’s ability to absorb losses due to unforeseen circumstances. Lax
oversight of the lending function also contributed to the asset quality problems that developed when economic
conditions in ASB’s lending markets deteriorated. Specifically, the bank exhibited weak ADC loan
underwriting, credit administration, and related monitoring practices. Further, ASB relied on non-core funding
sources, especially brokered deposits, to support its lending activities and maintain adequate liquidity. These
funding sources became restricted when ASB’s credit risk profile deteriorated, straining the institution’s
liquidity position.

ASB’s heavy concentration in ADC loans, coupled with weak risk management practices, made the institution
vulnerable to a sustained downturn in the real estate market. During 2007, conditions in ASB’s primary
lending areas began to decline, but notably, ASB’s assets increased by $96 million (or 14 percent) during the
first 6 months of 2008. By year-end 2008, the quality of ASB’s loan portfolio had deteriorated significantly,


                                   To view the full report, go to www.fdicig.gov
   Executive Summary
                                       Material Loss Review of Atlantic Southern Bank,
                                       Macon, Georgia                                                               T
                                                                                          Report No. AUD-12-003
                                                                                                 December 2011

with the majority of problems centered in ADC loans. Further deterioration occurred in 2009. The associated
provisions for loan losses depleted ASB’s earnings, eroded its capital, and strained its liquidity. GDBF closed
ASB on May 20, 2011 because the institution was unable to raise sufficient capital to support its operations.

The FDIC’s Supervision of ASB

The FDIC, in coordination with the GDBF, provided ongoing regulatory supervision of ASB through on-site
risk management examinations, visitations, and off-site monitoring activities. The regulators also reviewed
and approved ASB’s previously discussed acquisition of three institutions that were part of the bank’s
expansion efforts. Through its supervisory efforts, the FDIC identified key risks in ASB’s operations and
brought these risks to the attention of the institution’s Board and management. Such risks included the bank’s
significant concentrations in ADC and other CRE loans, lack of adequate capital, weak loan underwriting and
credit administration practices, and reliance on non-core funding sources. The FDIC and GDBF made
numerous recommendations for improvement. In November 2008, ASB’s Board adopted a Bank Board
Resolution to address concerns identified during the November 2008 visitation. Further, in September 2009,
the FDIC, in coordination with the GDBF, issued a Cease and Desist Order against ASB to address the safety
and soundness concerns identified during the February 2009 joint examination.

A more forward-looking assessment of ASB’s risk profile during earlier examinations, particularly during the
GDBF’s November 2007 examination, may have been prudent. Such an assessment may have resulted in
lower supervisory ratings and a supervisory action and established a strong supervisory tenor at a critical time.
This approach may have influenced ASB to curb its growth appetite sooner than it did, potentially mitigating,
to some extent, the financial problems experienced by the bank and the losses incurred by the DIF. FDIC
examiners became sharply critical of ASB’s risk management practices during the November 2008 visitation,
and FDIC and GDBF examiners reported significant weaknesses in subsequent examinations and visitations.
However, by that time, the institution’s financial condition and lending markets were rapidly deteriorating,
making remedial efforts difficult.

The FDIC has taken a number of actions to increase its supervisory attention to banks with risk profiles similar
to ASB. Such actions include instituting a training initiative for examiners on forward-looking supervision and
issuing additional supervisory guidance on CRE and ADC concentrations and funds management practices.

With respect to PCA, the FDIC implemented supervisory actions that were consistent with relevant provisions
of section 38.


Management Response

The Director, RMS, provided a written response, dated December 16, 2011, to a draft of this report. In the
response, RMS reiterated the causes of failure and the supervisory activities described in the report. The
response noted that the FDIC issued a Financial Institution Letter (FIL) in 2008, entitled Managing
Commercial Real Estate Concentrations in a Challenging Environment, that re-emphasized the importance of
robust credit risk-management practices for institutions with concentrated CRE exposures and set forth broad
supervisory expectations. Additionally, the response referenced a 2009 FIL, entitled The Use of Volatile or
Special Funding Sources by Financial Institutions That Are in a Weakened Condition, issued by RMS to
heighten its supervision of institutions with aggressive growth strategies or excessive reliance on volatile
funding sources. The response also stated that RMS is committed to ensuring that institutions meet all PCA
requirements.


                                   To view the full report, go to www.fdicig.gov
                                Contents

Background                                                               2

Causes of Failure and Material Loss                                       3
 Growth in CRE and ADC Loans                                              3
 Capital Levels Relative to CRE and ADC Loan Growth                       7
 Oversight of the Lending Function                                        8
 Funding Strategy                                                        10

The FDIC’s Supervision of ASB                                            11
 Supervisory History                                                     12
 Supervisory Response to Key Risks                                       14
 Supervisory Lessons Learned                                             18
 Implementation of PCA                                                   19

OIG Evaluation of Corporation Comments                                   21

Appendices
 1. Objectives, Scope, and Methodology                                   22
 2. Glossary of Terms                                                    25
 3. Acronyms                                                             29
 4. Corporation Comments                                                 30

Tables
 1. Selected Financial Data for ASB, 2006-2011                            2
 2. ASB’s Total Risk-Based Capital Ratios Compared to Peer Group          8
 3. On-site Examinations and Visitations of ASB, 2006-2010               13
 4. ASB’s Capital Levels Relative to PCA Thresholds, 2009-2011           20

Figures
  1. Composition and Growth of ASB’s Loan Portfolio, 2003-2010           4
  2. ASB’s ADC Loan Concentration Compared to Peer Group                 5
  3. ASB’s Net Loan Charge-offs through December 31, 2010                6
  4. Trend in ASB’s Total Risk-Based Capital Ratio Relative to CRE and   7
     ADC Loans
  5. ASB’s Net Non-Core Funding Dependency Ratio Compared to Peer        10
Federal Deposit Insurance Corporation                                              Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     December 16, 2011

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  Material Loss Review of Atlantic Southern Bank, Macon,
                                          Georgia (Report No. AUD-12-003)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, as amended by
the Dodd-Frank Wall Street Reform and Consumer Protection Act (the Financial Reform
Act), the Office of Inspector General (OIG) conducted a material loss review (MLR) of
the failure of Atlantic Southern Bank (ASB), Macon, Georgia. The Georgia Department
of Banking and Finance (GDBF) closed the bank on May 20, 2011, and the FDIC was
appointed receiver. On June 17, 2011, the FDIC notified the OIG that ASB’s total assets
at closing were $726 million, and that the estimated loss to the Deposit Insurance Fund
(DIF) was $273.5 million. The estimated loss exceeds the $200 million MLR threshold
for losses occurring between January 1, 2010 and December 31, 2011, as established by
the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate Federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA), a
determination as to why the institution’s problems resulted in a material loss to the DIF,
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of ASB’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision
of ASB, including the FDIC’s implementation of the PCA provisions of section 38 of the
FDI Act. This report does not contain formal recommendations. Instead, as major causes,
trends, and common characteristics of institution failures are identified in our MLRs, we
will communicate those to FDIC management for its consideration. As resources allow,
we may also conduct more comprehensive reviews of specific aspects of the FDIC’s
supervision program and make recommendations as warranted.1


1
 A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of this report.
Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms,
Appendix 3 contains a list of acronyms, and Appendix 4 contains the Corporation’s
comments on this report.


Background
ASB was established in December 2001 as a state nonmember institution called New
Southern Bank. In 2005, the bank changed its name to ASB. The bank was wholly
owned by the Atlantic Southern Financial Group, Inc., a publicly-traded, one-bank holding
company. As of June 2010, ASB’s directorate owned or controlled 19.5 percent of the
holding company’s outstanding stock, with the remainder of the stock widely held.

In 2006 and 2007, ASB expanded its geographic presence in central and southern Georgia
to the growing markets of coastal Georgia and northern Florida. The bank’s expansion
was facilitated by the acquisition of three institutions: Sapelo National Bank (with total
assets of $64 million), First Community Bank of Georgia (with total assets of
$70 million), and CenterState Bank Mid Florida (with total assets of $100 million). Part
of ASB’s strategy in acquiring these institutions was to obtain core deposits in order to
decrease its reliance on non-core funding sources. During that period, the bank relied
heavily on non-core funding, including brokered deposits and Federal Home Loan Bank
(FHLB) borrowings, to support its lending activities and maintain adequate liquidity.
ASB’s lending strategy focused on acquisition, development, and construction (ADC) and
other commercial real estate (CRE) projects.

At the time of its closure, ASB operated a main office in Macon, Georgia, and 15 branches
in central, southern, and coastal Georgia. The bank also operated one branch in
Jacksonville, Florida. Table 1 summarizes selected financial information pertaining to
ASB as of March 31, 2011 and for the 5 preceding years.

Table 1: Selected Financial Data for ASB, 2006-2011
  Financial Data
       ($000s)       Dec - 06    Dec - 07    Dec- 08       Dec - 09    Dec - 10    Mar - 11
 Total Assets        $670,292    $851,465    $989,728       $948,477    $772,655   $741,855
 Total Loans         $534,660    $697,825    $794,175       $719,396    $576,644   $544,068
 Total Investments    $87,377     $86,251    $101,738       $155,341     $86,981    $84,857
 Total Deposits      $557,236    $707,067    $837,173       $862,046    $726,435   $707,643
 Brokered Deposits   $242,033    $272,904    $384,372       $236,249    $117,025   $111,957
 FHLB Borrowings      $31,700     $40,500     $47,500        $39,000     $29,000    $19,000
 Net Income (Loss)     $6,357      $8,341      ($137)      ($58,523)   ($26,216)    ($2,524)
Source: Uniform Bank Performance Reports (UBPR) for ASB.




                                                2
Causes of Failure and Material Loss

ASB failed primarily because its Board of Directors (Board) and management did not
effectively manage the risks associated with the institution’s aggressive growth and heavy
concentration in CRE loans, particularly ADC loans. Notably, ASB did not maintain
capital at levels that were commensurate with the increasing risk in its loan portfolio,
reducing the institution’s ability to absorb losses due to unforeseen circumstances. Lax
oversight of the lending function also contributed to the asset quality problems that
developed when economic conditions in ASB’s lending markets deteriorated.
Specifically, the bank exhibited weak ADC loan underwriting, credit administration, and
related monitoring practices. Further, ASB relied on non-core funding sources, especially
brokered deposits, to support its lending activities and maintain adequate liquidity. These
funding sources became restricted when ASB’s credit risk profile deteriorated, straining
the institution’s liquidity position.

ASB’s heavy concentration in ADC loans, coupled with weak risk management practices,
made the institution vulnerable to a sustained downturn in the real estate market. During
2007, economic conditions in ASB’s primary lending areas began to decline, but notably,
ASB’s assets increased by $96 million (or 14 percent) during the first 6 months of 2008.
By year-end 2008, the quality of ASB’s loan portfolio had deteriorated significantly, with
the majority of problems centered in ADC loans. Further deterioration occurred in 2009.
The associated provisions for loan losses depleted ASB’s earnings, eroded its capital, and
strained its liquidity. GDBF closed ASB on May 20, 2011 because the institution was
unable to raise sufficient capital to support its operations.

Growth in CRE and ADC Loans

Soon after it was established, ASB embarked on an aggressive growth strategy centered in
CRE, particularly ADC, loans in response to a strong real estate market. The bank’s target
lending areas were in central and coastal Georgia, northern Florida, Tennessee, and
Alabama. However, ASB’s Board and management did not effectively manage the risks
associated with the institution’s rapid growth and ensuing concentrations in CRE and
ADC loans. A description of the institution’s lending strategy and risk management
practices in this area follows.

Aggressive Growth

From December 31, 2003 to December 31, 2008, ASB’s loan portfolio grew from
$136 million to $794 million (or 484 percent).2 Contributing to this growth was an
increase in total CRE loans (including ADC loans) from $74 million at year-end 2003 to
$592 million at year-end 2008. During this same period, ADC loans grew from
$32 million to $314 million (an increase of 881 percent). ASB’s ADC lending included
speculative construction and land development projects.3 Figure 1 illustrates the general

2
  The three bank acquisitions contributed $167 million (or 25 percent) of ASB’s $658 million in loan
growth.
3
  Speculative lending involves the financing of projects for which a buyer has not yet been identified.

                                                      3
composition and growth of ASB’s loan portfolio in the years preceding the institution’s
failure.

Figure 1: Composition and Growth of ASB’s Loan Portfolio, 2003-2010
                                                           Other Loans                             $794
                                                           Other CRE Loans
                                          $800             ADC Loans                                       $720
                                                                                          $698

                                          $700                                                    $202
 Gross Loans and Leases (Millions)




                                                                                                                      $577
                                                                                                            $181
                                                                                         $170
                                          $600                                  $535

                                          $500                                                                       $166
                                                                                $121
                                                                                                  $278
                                                                                         $236               $276
                                          $400                          $333

                                                                                $189
                                                                $229     $88                                         $234
                                          $300

                                                    $136       $76       $99
                                          $200
                                                                                         $292     $314
                                                               $73                                          $263
                                                    $62                         $225
                                          $100                          $146                                         $177
                                                    $42
                                                    $32        $80
                                            $0
                                                  2003       2004      2005    2006    2007      2008     2009     2010
                                                                                Year Ended

Source: OIG Analysis of Consolidated Reports of Condition and Income (Call Reports) for ASB.

CRE and ADC Concentrations

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued joint guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). Although the Joint Guidance does not establish specific CRE lending
limits, it does define criteria that the agencies use to identify institutions potentially
exposed to significant CRE concentration risk. According to the Joint Guidance, an
institution that has experienced rapid growth in CRE lending, has notable exposure to a
specific type of CRE, or is approaching or exceeds the following supervisory criteria may
be identified for further supervisory analysis of the level and nature of its CRE
concentration risk:

                                        total CRE loans representing 300 percent or more of total capital where the
                                         outstanding balance of the institution’s CRE loan portfolio has increased by
                                         50 percent or more during the prior 36 months; or

                                        total loans for construction, land development, and other land loans (referred to in
                                         this report as ADC loans) representing 100 percent or more of total capital.



                                                                               4
As of December 31, 2007, ASB’s non-owner-occupied CRE loans represented 723 percent
of the institution’s total capital. Further, the bank’s ADC loan concentration at year-end
2007 represented 354 percent of total capital. Both of these concentrations significantly
exceeded the levels defined in the Joint Guidance as possibly warranting further
supervisory analysis. Further, as reflected in Figure 2, ASB’s ADC loan concentration
significantly exceeded the bank’s peer group4 average throughout the life of the bank.

Figure 2: ASB’s ADC Loan Concentration Compared to Peer Group

    400.00%
    350.00%
    300.00%
    250.00%
    200.00%
    150.00%
    100.00%
     50.00%
      0.00%
                   2002       2003       2004       2005       2006        2007       2008

                 Dec-02 Dec-03 Dec-04 Dec-05 Dec-06 Dec-07 Dec-08

         ASB 145.90% 199.41% 323.43% 365.44% 339.27% 353.95% 364.82%
         Peer 52.48% 71.84% 99.55% 112.83% 117.42% 123.58% 111.47%

Source: UBPRs for ASB.

ADC lending generally involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. Associated risks include adverse changes in
market conditions between the time an ADC loan is originated and the time construction is
completed, as well as the inherent difficulty of accurately estimating the cost of
construction and the value of completed properties in future periods. Due to these and
other risk factors, ADC loans generally require greater effort to effectively evaluate and
monitor than other types of loans.

Although ASB had implemented certain controls for managing its CRE and ADC loan
concentrations, its concentration risk management practices were not adequate. Among
other things, the institution’s ADC loan concentration limits were high. Specifically,
ASB’s internal guidelines allowed ADC concentrations of up to 400 percent of the bank’s
risk-based capital, exposing the institution to potential adverse market conditions. In

4
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. ASB’s peer group included all insured
institutions with assets between $300 million and $1 billion.

                                                      5
addition, the institution did not stress-test its CRE and ADC loan portfolios to assess the
impact that various economic scenarios might have on the institution’s asset quality,
capital, earnings, and liquidity as described in the Joint Guidance. The bank had also not
developed a feasible contingency plan to mitigate the risks associated with its ADC loan
concentration in the event of adverse market conditions.

ADC Loan Losses

At the time of the February 2009 examination, ASB’s adversely classified assets totaled
$81 million (or 94 percent of Tier 1 Capital plus the Allowance for Loan and Lease
Losses (ALLL)). This amount included $70 million in classified loans. By the February
2010 examination, adversely classified assets had increased to $180 million (or
271 percent of Tier 1 Capital plus the ALLL). In its Call Report for the year ended
December 31, 2010, ASB reported that nearly 20 percent of its total loan portfolio was in
a nonaccrual status. Further, about 40 percent of the bank’s ADC loan portfolio was not
performing at that time. As reflected in Figure 3, the majority of ASB’s loan charge-offs
pertained to ADC loans.

Figure 3: ASB’s Net Loan Charge-offs through December 31, 2010
                                         (Dollars in Thousands)




                                $6,884

                $5,829




                $7,648                                                           $32,198




                          ADC    Other CRE     Commercial & Industrial   Other

Source: Call Reports for ASB.

Additionally, as borrowers defaulted on loans, ASB’s other real estate owned (OREO)5
increased from $759,000 in 2007 to over $21 million in 2009. As the real estate market
and economy continued to decline, the bank’s OREO increased to over $72 million by
year end 2010.
5
    OREO is property taken over by a bank through loan foreclosures.

                                                        6
Individual Concentrations of Credit

Adding to the risk in the loan portfolio were individual concentrations of credit.
Generally, these relationships consisted of an individual or group of real estate developers
that had borrowed funds from ASB to finance numerous real estate projects. From 2006
to 2009, individual concentrations of credit ranged from 25 percent to 32 percent of Tier 1
Capital. Four of the individual concentrations of credit were cited by examiners as
violations of state legal lending limits. Notably, the February 2009 and February 2010
joint examination reports identified approximately $6 million and $23 million,
respectively, of these concentrations as being adversely classified. ASB’s individual
concentrations of credit increased the bank’s exposure to a sustained downturn in the real
estate market.

Capital Levels Relative to CRE and ADC Loan Growth

While risk in the loan portfolio increased due to ASB’s growing ADC loan exposure,
capital ratios remained relatively constant or declined. This trend limited the bank’s
ability to absorb losses due to unforeseen circumstances and contributed to the losses
incurred by the DIF when the institution failed. Figure 4 illustrates the trend in ASB’s
Total Risk-Based Capital relative to CRE and ADC loans.

Figure 4: Trend in ASB’s Total Risk-Based Capital Ratio Relative to CRE and ADC
          Loans

                            $700                                                                              16

                            $600                                                                              14
   Total Loans (Millions)




                                                                                                              12


                                                                                                                   Total RBC Ratio
                            $500



                                                                                                                    (Percentage)
                                                                                                              10
                            $400
                                                                                                              8
                            $300
                                                                                                              6
                            $200
                                                                                                              4
                            $100                                                                              2
                              $0                                                                              0
                                 03



                                           04



                                                     05



                                                               06



                                                                         07



                                                                                   08



                                                                                               09



                                                                                                         10
                               c-



                                         c-



                                                   c-



                                                             c-



                                                                       c-



                                                                                 c-



                                                                                             c-



                                                                                                       c-
                            De



                                      De



                                                De



                                                          De



                                                                    De



                                                                              De



                                                                                          De



                                                                                                    De




                                                                Year Ended
                                         ADC Loans          Total CRE Loans             Total Risk-Based Capital

 Source: UBPRs for ASB.

Although ASB’s exposure to ADC loans was much higher than the bank’s peer group
average, ASB’s capital levels were consistently below its peer group average. Table 2
reflects ASB’s Total Risk-Based Capital ratios compared to the bank’s peer group from
2003 to 2008.


                                                                         7
Table 2: ASB’s Total Risk-Based Capital Ratios Compared to Peer Group
                       Dec-03        Dec-04        Dec-05       Dec-06        Dec-07       Dec-08
                                                          (Percent)
    ASB                  11.03        10.21         11.88         11.81        11.32         10.33

    Peer                 16.01        14.57         13.98         12.89        12.73         12.60
Source: UBPRs for ASB.

The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
states that institutions should maintain capital commensurate with the level and nature of
risks to which they are exposed. In addition, the amount of capital necessary for safety
and soundness purposes may differ significantly from the amount needed to maintain a
Well Capitalized or Adequately Capitalized position for purposes of PCA. Had ASB
maintained higher capital ratios commensurate with its risk profile, the institution’s loan
growth may have been constrained, and losses to the DIF may have been mitigated to
some extent.

Oversight of the Lending Function

Ineffective Board and management oversight of the lending function contributed to the
asset quality problems that developed when the economy and local real estate market
declined. Examiners identified areas for improvement in ASB’s credit risk management
practices in examination and visitation reports from 2006 to 2010. References to
weaknesses in loan underwriting, credit administration, and related monitoring practices
were most prevalent in the February 2009 and February 2010 examination reports. Some
of the more salient weaknesses are briefly described below.

          Global Cash Flow Analyses. FDIC Financial Institution Letter (FIL)-22-2008,
           Managing Commercial Real Estate Concentrations in a Challenging Environment,
           emphasizes the importance of performing global financial analyses for obligors.
           Such analyses can provide early indications of problems and are essential in
           determining whether it is prudent to continue working with a problem borrower or
           pursue an exit strategy. Examiners noted that loan underwriting needed to be
           enhanced for large, complex lending relationships. Specifically, it was difficult to
           determine the global financial condition or ability of borrowers to repay without
           consolidated financial statements and eliminations of intercompany transactions
           documented in loan files.

          Use of Interest Reserves. Regional Directors Memorandum 2008-021,
           Supervising Institutions with Commercial Real Estate Concentrations, issued by
           the FDIC’s Division of Risk Management Supervision (RMS), describes risks
           associated with the use of interest reserves.6 The memorandum states that if a

6
  An interest reserve account allows a lender to periodically advance loan funds to pay interest charges on
the outstanding balance of the loan. The interest is capitalized and added to the loan balance. Frequently,
ADC loan budgets will include an interest reserve to carry the project from origination to completion and
may cover the project’s anticipated sellout or lease-up period.

                                                      8
    project experiences delays or has diminished feasibility resulting from a weak local
    real estate market, interest reserves can inappropriately disguise a problem credit
    relationship from appearing on delinquency reports. Accordingly, the
    effectiveness of a bank’s control over interest reserves and its internal reporting on
    the use of reserves is important to institutions with construction and development
    loan concentrations. Examiners noted instances in which management’s use of
    interest reserves was not acceptable. Specifically, examiners identified loans
    referred to as “working capital” loans or “investment” lines of credit that were
    used to pay interest on other loans, but were not properly identified as interest
    reserves. Examiners also noted that ASB had established interest reserves for
    some loans that were no longer (or never were) in the development or construction
    phase.

   Appraisals. Part 323, Appraisals, of the FDIC Rules and Regulations, identifies
    real estate financial transactions, including loan renewals, requiring the services of
    an appraiser. Examiners noted instances in which loans were renewed after a
    significant change in the real estate market, but evaluations or appraisals had not
    been obtained.

   Legal Lending Limit. Section 7-1-285 of the Financial Institutions Code of
    Georgia imposes limitations on the amount of loans to one borrower and states, in
    part, that a bank shall not directly or indirectly make loans to any one person or
    corporation which, in aggregate, exceed 15 percent of the statutory capital base of
    the bank, unless the entire amount of such loans is secured by good collateral or
    other ample security and does not exceed 25 percent of the statutory capital base.
    Examiners reported three lending relationships that exceeded these limitations, two
    of which were cited at more than one examination.

   Real Estate Loan-to-Value Limits. Guidelines for real estate lending are set
    forth in Part 365 of the FDIC Rules and Regulations. Appendix A of Part 365 sets
    forth specific guidelines related to the maximum loan-to-value (LTV) ratios that
    should be maintained regarding various categories of real estate loans. The
    guidelines allow for individual exceptions to the LTV limits based on the support
    provided by other credit factors. LTV exceptions should be identified in the
    institution’s records and their aggregate amount reported at least quarterly to the
    institution’s Board. According to the guidelines, the aggregate amount of all loans
    in excess of the supervisory LTV limits should not exceed 100 percent of total
    capital. Institutions receive increased supervisory scrutiny as the total of such
    loans approaches this level. At the 2006 and 2009 examinations, examiners
    identified several loans that collectively exceeded these regulatory guidelines.

   Underfunded ALLL. According to the Interagency Policy Statement on the
    Allowance for Loan and Lease Losses (Policy Statement on ALLL), the ALLL
    represents one of the most significant estimates in an institution’s financial
    statements and regulatory reports. As a result, institutions are responsible for
    developing, maintaining, and documenting a comprehensive, systematic, and

                                          9
            consistently-applied process for determining the ALLL. The February 2010
            examination and August 2010 visitation reports stated that ASB’s ALLL was
            underfunded by $15 million and $102,000, respectively.

Funding Strategy

In the years preceding its failure, ASB became increasingly dependent on non-core
funding sources to support loan growth and maintain adequate liquidity. When properly
managed, such funding sources offer important benefits, such as ready access to funding
in national markets when core deposit growth in local markets lags planned asset growth.
However, non-core funding sources also present potential risks, such as higher costs and
increased volatility. According to the Examination Manual, placing heavy reliance on
potentially volatile funding sources to support asset growth is risky because access to
these funds may become limited during distressed financial or economic conditions.
Under such circumstances, institutions could be required to sell assets at a loss in order to
fund deposit withdrawals and other liquidity needs.

A bank’s net non-core funding dependency ratio is a key measure of the degree to which
an institution relies on non-core funding to support longer-term assets (e.g., loans that
mature in more than 1 year). As shown in Figure 5, ASB’s net non-core funding
dependency ratio was consistently higher than its peer group, ranking in the 90th to
93rd percentile from 2007 to 2009. ASB’s net non-core funding dependency ratio was
elevated due to the bank’s heavy reliance on aggressively priced deposits, brokered
deposits, FHLB borrowings, and Federal Funds purchased.

Figure 5: ASB’s Net Non-Core Funding Dependency Ratio Compared to Peer


          120


          100

                                                             ASB
          80
                                                             Peer
  Ratio




          60


          40


          20


           0
                Dec-03   Dec-04   Dec-05   Dec-06   Dec-07   Dec-08   Dec-09   Dec-10
                                             Year End

Source: UBPRs for ASB.

During the November 2008 visitation, examiners determined that ASB’s poor asset quality
and deficient earnings had weakened the bank’s liquidity position, presenting a risk that

                                                        10
the bank would not be able to attract funds in the open market on reasonable terms.
Examiners noted that the need to replace brokered deposits, fund deposit withdrawals, and
meet previously established loan commitments presented risk to the bank’s liquidity
profile. To address these concerns, ASB’s Board adopted a Bank Board Resolution
(BBR) that included a provision intended to prevent any further increase in the bank’s
brokered deposits holdings and eliminate its reliance on brokered deposits.

By the February 2009 examination, ASB’s liquidity position had become less than
satisfactory. Although the Board had adopted a brokered deposit reduction plan and made
some progress in reducing its brokered deposits, the bank’s brokered deposits still
represented almost half of total deposits. In addition, ASB’s net non-core funding
dependency ratio remained excessively high at 62 percent. Examiners noted that the
Board-approved policy limit of less than 65 percent for net non-core funding dependency
appeared excessive given the level of risk in the bank’s loan portfolio.

Based on the results of the February 2009 examination, the FDIC, in conjunction with the
GDBF, initiated a Cease and Desist Order (C&D) against ASB, effective September 11,
2009, which included a provision to eliminate the bank’s reliance on brokered deposits. In
response, ASB adopted a brokered deposit plan effective September 11, 2009 and began
liquidating its investment portfolio to increase cash reserves and maintain liquidity. As a
result, the bank’s investment portfolio decreased from $155 million at year-end 2009 to
$85 million by the quarter-ending March 31, 2011. By the time of the 2010 examination
and visitation, the bank’s liquidity position had become critically deficient, and access to
outside funding sources was strained.

The FDIC’s Supervision of ASB
The FDIC, in coordination with the GDBF, provided ongoing supervisory oversight of
ASB through on-site risk management examinations, visitations, and off-site monitoring
activities. The regulators also reviewed and approved ASB’s previously discussed
acquisition of three institutions that were part of the bank’s expansion efforts. Through its
supervisory efforts, the FDIC identified key risks in ASB’s operations and brought these
risks to the attention of the institution’s Board and management. Such risks included the
bank’s significant concentrations in ADC and other CRE loans, lack of adequate capital,
weak loan underwriting and credit administration practices, and heavy reliance on non-
core funding sources. The FDIC and the GDBF also made numerous recommendations
for improvement. In November 2008, ASB’s Board adopted a BBR to address concerns
identified during the November 2008 visitation. Further, in September 2009, the FDIC, in
coordination with the GDBF, issued a C&D against ASB to address the safety and
soundness concerns identified during the February 2009 joint examination.

As discussed below, a more forward-looking assessment of ASB’s risk profile during
earlier examinations, particularly during the GDBF’s November 2007 examination, may
have been prudent. Such an assessment may have resulted in lower supervisory ratings
and a supervisory action and established a strong supervisory tenor at a critical time. This
approach may have influenced ASB to curb its growth appetite sooner than it did,

                                             11
mitigating, to some extent, the financial problems experienced by the bank and the losses
incurred by the DIF. FDIC examiners became sharply critical of ASB’s risk management
practices during the November 2008 visitation, and FDIC and GDBF examiners reported
significant weaknesses in subsequent examinations and visitations. However, by that
time, the institution’s financial condition and lending markets were rapidly deteriorating,
making remedial efforts difficult.

The FDIC has taken a number of actions to increase its supervisory attention to banks with
risk profiles similar to ASB. Such actions include instituting a training initiative for
examiners on forward-looking supervision and issuing additional supervisory guidance on
CRE and ADC concentrations and funds management practices.

Supervisory History

From 2006 to 2010, the FDIC and the GDBF conducted four on-site examinations and
three visitations of ASB. The frequency of this on-site examination activity was generally
consistent with relevant statutory and regulatory requirements.7 The scope of our work
focused on the FDIC’s supervision of ASB from 2006 until the bank’s closure in May
2011. Table 3 summarizes key supervisory information pertaining to ASB’s examinations
and visitations.




7
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, on-site examinations of every state non-member bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (i.e., total assets of less than
$500 million) if certain conditions are satisfied. ASB was not considered a small institution during the
period covered by our review. We noted that the length of time between the November 2007 examination
and February 2009 examination was approximately 1 month longer than permitted by FDIC policies for
implementing the regulations and statute. However, the FDIC completed a visitation in November 2008,
which we determined mitigated the effect of the delay.

                                                       12
Table 3: On-site Examinations and Visitations of ASB, 2006-2010
                                                                               Number of
    Examination                                            Supervisory                              Informal or
                    Examination                                                Violations
    or Visitation                    Regulator(s)            Ratings                               Formal Action
                    or Visitation                                                and/or
     Start Date                                             (UFIRS*)                                 Taken***
                                                                             Contraventions
      11/20/06      Examination          FDIC               212122/2                4                   None
      11/26/07      Examination          GDBF               222222/2                4                   None
      11/12/08       Visitation          FDIC               333443/3         Not Applicable**       BBR effective
                                                                                                    November 17,
                                                                                                        2008
      02/17/09      Examination       FDIC/GDBF             444343/4                 5              C&D effective
                                                                                                    September 11,
                                                                                                        2009
      10/13/09        Visitation      FDIC/GDBF        No change in the      Not Applicable**        C&D still in
                                                           ratings                                      effect
      02/01/10      Examination       FDIC/GDBF           555555/5                   7               C&D still in
                                                                                                        effect
      08/16/10        Visitation         FDIC          No change in the      Not Applicable**        C&D still in
                                                           ratings                                      effect
Source: OIG analysis of examination reports and visitation memorandums for ASB.
* See the report Glossary for a definition of UFIRS, which establishes the CAMELS rating system.
** The visitations did not assess the bank’s compliance with laws and regulations.
*** Informal actions often take the form of a BBR or Memorandum of Understanding. Formal enforcement
actions often take the form of a C&D or a Supervisory Directive.

Off-site Monitoring

The FDIC’s off-site monitoring procedures generally consisted of contacting the bank’s
management from time to time to discuss current and emerging business issues and using
automated tools8 to identify potential supervisory concerns. Although ASB had high CRE
and ADC concentrations, the FDIC’s automated bank monitoring programs did not trigger
any offsite reviews prior to 2009. However, according to an RMS official, the FDIC
conducted a visitation of ASB in November 2008 based on an internal RMS monitoring
program to assess the risks posed by institutions with a significant level of CRE and ADC
concentrations.

ASB became subject to an off-site review that was triggered by the bank’s significant
provisions made to the ALLL during the third quarter of 2009. The FDIC contacted the
bank’s president, who stated that he anticipated a loss for the third quarter of between
$5 and $6 million because of problem assets centered in the CRE portfolio. At the time,
ASB was subject to a C&D, so the FDIC continued to monitor the bank.



8
  The FDIC uses various off-site monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions with a
composite CAMELS rating of 1 or 2 that are likely to receive a supervisory downgrade at the next
examination or institutions experiencing rapid growth and/or a funding structure highly dependent on non-
core funding sources.

                                                      13
Enforcement Actions

Following the November 2008 FDIC visitation, ASB’s Board drafted and adopted a BBR
containing nine provisions intended to address examiner concerns. The BBR addressed
such matters as the: (1) development and adoption of a capital plan; (2) review and
revision of the bank’s loan underwriting and administration procedures for ADC loans;
(3) reduction of classified items and concentrations; and (4) review and assessment of the
adequacy of the bank’s contingency funding plan. Based on the results of the February
2009 examination, the FDIC, working in conjunction with the GDBF, issued a C&D on
September 11, 2009. The C&D required, among other things, that the institution:

      Increase Board participation in the affairs of the bank.

      Analyze credit concentrations and develop a plan to reduce such concentrations.

      Submit a written plan to reduce ADC loan concentrations.

      Raise and maintain Tier 1 Capital and Total Risk-Based Capital to equal or exceed
       8 percent of total assets and 10 percent of total risk-weighted assets, respectively,
       in addition to a fully funded ALLL.

      Implement written lending, underwriting, and collection policies to provide
       effective guidance and control over the lending function.

      Implement a written plan to address liquidity, contingent funding, interest rate risk,
       and asset/liability management.

      Discontinue accepting, renewing, or rolling over brokered deposits without a
       waiver from the FDIC.

      Eliminate and/or correct all violations of laws and/or regulations and
       contraventions of statements of policy cited during the February 2009 examination.

Supervisory Response to Key Risks

In the years preceding ASB’s failure, the FDIC and the GDBF identified risks in the
bank’s operations and brought these risks to the attention of the institution’s Board and
management through examination and visitation reports, correspondence, and
recommendations. In addition, the FDIC issued a C&D in September 2009. A summary
of supervisory activities related to the bank’s key risks follows.

2006 Supervisory Activities

Examiners determined during the November 2006 examination that ASB’s overall
condition was satisfactory and that management operated the bank in a satisfactory
manner through effective operating policies and sufficient practices. In addition, the
Board was active and well-informed. Asset quality and earnings were considered strong,

                                             14
and capital was considered adequate. Examiners identified ASB’s CRE and ADC industry
and individual concentrations, but determined that the bank’s monitoring practices were
adequate. Examiners also noted ASB’s increasing reliance on non-core funding sources to
support growth, but considered liquidity to be adequate. A contravention of Interagency
Guidelines for Real Estate Lending Policies contained in Appendix A of part 365 of the
FDIC Rules and Regulations was also identified.

2007 Supervisory Activities

During the November 2007 examination, examiners determined that the overall condition
of the bank remained satisfactory. However, the slowdown in the economy and depressed
real estate markets were negatively affecting the bank’s financial performance and asset
quality. Specifically, earnings had declined following the prior examination and adversely
classified assets had increased from 4 percent to 33 percent of Tier 1 Capital plus the
ALLL. As a result, examiners lowered the bank’s Asset Quality and Earnings component
ratings from a “1” to a “2.”

Examiners noted that ASB had experienced tremendous growth following its opening in
2001, fueled by local business, an expansion in its branch system, and recent acquisitions.
The bank’s annual asset growth rate was 73 percent in 2006 and was 23 percent as of the
2007 examination. In addition, CRE and ADC loan concentrations represented
697 percent and 349 percent,9 respectively, of risk-based capital, posing significant risk to
the institution. Examiners made numerous recommendations in the report of examination
for management to improve its risk management practices. Notably, examiners
recommended that management:

       Improve the manner in which risk exposure is measured and the policies and
        procedures governing that risk.

       Formalize the appraisal review process, particularly for large loans.

       Modify the loan policy to address the Interagency Guidelines for Real Estate
        Lending Policies.

Examiners also recommended that the Board establish limits on the bank’s aggregate
exposure to CRE, including sub-limits by loan type, property type, geographic market, or
any other relevant segmentation.

To keep pace with the asset growth, the holding company injected capital totaling
$30 million during 2005 and 2006. Nevertheless, the bank’s Tier 1 Leverage Capital ratio
was 9.32 percent, down from 11.76 percent at the prior examination. In addition, the
bank’s Total Risk-Based Capital ratio was 10.46 percent, slightly above the minimum
requirement for maintaining a Well Capitalized position for PCA purposes. Examiners


9
  ASB’s management had established an internal guideline of 400 percent of risk-based capital for total ADC
loans outstanding.

                                                    15
also noted that ASB’s net non-core dependency ratio had fallen 4 percent (to
54 percent) from the prior examination.

2008 Supervisory Activities

During the November 2008 visitation, examiners identified significant deterioration in
ASB’s loan portfolio that was adversely affecting other areas of the bank’s operating
performance and downgraded the bank to a composite “3.” Adversely classified assets
had more than doubled since the prior examination, comprising 70 percent of Tier 1
Capital and the ALLL. In addition, problems had developed in a significant volume of the
bank’s speculative ADC projects, which lacked proper monitoring and risk reduction
strategies. Examiners noted that ASB’s management had aggressively pursued loan
growth at the expense of prudent lending standards and that the Board and management
had not appropriately supervised the bank’s activities.

An October 20, 2008 external loan review performed on behalf of the bank identified
numerous deficiencies in loan underwriting and credit administration. Among other
things, the review found that:

       management had failed to fully document the financial condition of borrowers and
        obtain current real estate appraisals, when appropriate;

       global cash flow calculations had not been consistently prepared using current
        financial information during underwriting; and

       borrower financial information was often not current or complete.

Examiners also determined that the ALLL was inadequate due to management not
charging off deficient balances on collateral-dependent loans. Further, capital was
considered to be less than satisfactory given the risks associated with the bank’s poor asset
quality, deficient earnings performance, and moderate market risk exposure. Additionally,
examiners found that liquidity had weakened and that associated monitoring practices
needed improvement. Notably, ASB’s net non-core dependency ratio of 61 percent was
considered excessively high. Examiners cautioned ASB’s management that the need to
replace brokered deposits, fund other deposit withdrawals, and meet previously
established loan commitments could impair the bank’s liquidity position. As stated
earlier, ASB’s Board initiated a BBR to address examiner concerns.

2009 Supervisory Activities

Examiners determined during the February 2009 joint examination that the overall
condition of the bank was unsatisfactory and downgraded the bank to a composite “4.”
Examiners noted that “the Board and senior management had embarked on a rapid growth
strategy over the past few years, without implementing sound risk management practices.”
Problems were attributed to rapid growth funded by the aggressive use of non-core
deposits and deteriorating market conditions coupled with the Board not ensuring that the
bank maintained sufficient capital throughout the growth period. Adversely classified

                                             16
assets had increased to 94 percent of Tier 1 Capital and the ALLL, posing significant risk
to the institution. The majority of asset quality problems were centered in ADC loans,
which represented 385 percent of Tier 1 Capital. Notably, the bank had a CRE
concentration of 695 percent, which exceeded the bank’s newly established internal
guideline of 500 percent. Additionally, ASB had five individual concentrations of credit
that represented 25 percent or more of Tier 1 Capital, posing added risk.

The examination report identified numerous loan underwriting, credit administration, and
monitoring weaknesses related to CRE (and ADC) concentrations, including a: (1) liberal
use of interest reserves, (2) failure to perform global cash flow analysis on complex
credits, (3) significant volume of loan documentation exceptions, and (4) lack of
implementation of recent loan policy revisions.

The FDIC, in coordination with the GDBF, pursued a C&D to address the risks identified
during the examination. The examination report was issued in July 2009 and the C&D in
September 2009. FDIC and GDBF officials stated that, due to resource constraints, it took
longer than anticipated to issue the final examination report. Both the FDIC and GDBF
have since implemented internal goals of issuing final examination reports within 90 days
of the start of examinations.

In October 2009, a joint visitation was conducted to review ASB’s internal classifications
and asset quality, capital, earnings, liquidity, and changes in management or strategic
plans. Examiners noted that adversely classified assets had increased to 165 percent of
Tier 1 Capital and the ALLL, and past-due and nonaccrual loans had increased to over
9 percent of total loans. Further, there was a high probability that the ALLL was
underfunded. There were no positive factors impacting capital adequacy, since adversely
classified assets in relation to capital had increased considerably, and earnings were
rapidly declining. Further, ASB’s liquidity position remained risky with management
relying heavily on brokered deposits. Further, the bank’s contingency funding plan lacked
specific strategies since bank management had not addressed two key variables—possible
deposit reductions and loan payoffs. Examiners cautioned management that a runoff of
non-brokered deposits could threaten the bank’s short-term viability. Examiners advised
management to strengthen contingency planning and cash flow projections.

Examiners also noted noncompliance with four of the nine provisions in the bank’s BBR
and that further enhancements were needed in the bank’s ADC administration procedures.
In addition, the bank’s strategy for reducing concentrations had not been fully
implemented, and the bank’s contingency funding plan did not adequately address key
areas.

2010 and 2011 Supervisory Activities

Examiners determined during the February 2010 joint examination that the overall
condition of the bank was critically deficient, resulting in a composite “5” rating. All
financial components had deteriorated since the previous examination and were
considered critically deficient. Adversely classified items had increased to 271 percent of
Tier 1 Capital and the ALLL, and the bank was Undercapitalized for PCA purposes. An

                                            17
August 2010 FDIC visitation found that the overall condition of the bank remained
critically deficient, despite management’s efforts to improve the bank’s condition. At that
time, ASB’s capital position had declined to Significantly Undercapitalized for PCA
purposes. By the close of 2010, the bank had fallen to Critically Undercapitalized, and
prospects for meaningful improvement were minimal.

For the remainder of 2010 until the bank’s closing in May 2011, the FDIC continued to
monitor the bank’s liquidity, efforts to raise capital, and compliance with the C&D.

Supervisory Lessons Learned

In retrospect, a more forward-looking assessment of ASB’s risk profile and management
practices during earlier examinations, particularly during the GDBF’s November 2007
examination, may have been prudent. At the time of the November 2007 examination,
ASB had a significant exposure to ADC loans, its lending markets were beginning to
experience a slowdown, and adversely classified assets had increased to 33 percent of
Tier 1 Capital plus the ALLL. In addition, although ASB’s ADC loan exposure was much
higher than the bank’s peer group average, ASB’s capital ratios were below peer group
averages. Further, ASB was heavily reliant on non-core funding sources, including
potentially volatile brokered deposits, to support loan growth and maintain liquidity.

A more critical assessment of the ASB’s risk management practices during the GDBF’s
November 2007 examination may have resulted in lower component ratings and a lower
composite rating, which could have led to a supervisory action. Such an approach would
have established a strong supervisory tenor that may have influenced ASB to curb its
appetite for loan growth sooner than it did, potentially mitigating, to some extent, the
financial problems experienced by the bank and the losses incurred by the DIF. FDIC
examiners became sharply critical of ASB’s risk management practices during the
November 2008 visitation, and FDIC and GDBF examiners reported significant
weaknesses in subsequent examinations and visitations. In addition, the FDIC, working
with the GDBF, issued a C&D in September 2009. However, by that time, the
institution’s financial condition and lending markets were rapidly deteriorating, making
remedial efforts difficult.

The perspectives gained from the failure of ASB are not unique. Like many other
institutions that failed in recent years, ASB developed a significant exposure to CRE and
ADC loans at a time when the bank’s financial condition and lending markets were
generally favorable. This exposure made the bank vulnerable to a sustained downturn in
the real estate market. The FDIC has taken a number of actions to increase its supervisory
attention to banks with risk profiles similar to ASB. With respect to the issues discussed
in this report, the FDIC has, among other things, provided training to its examination
workforce wherein the importance of assessing an institution’s risk management practices
on a forward-looking basis was emphasized. The training addressed the importance of
considering management practices, as well as current financial performance or trends,
when assigning ratings, consistent with existing examination guidance.



                                            18
The FDIC has also issued supervisory guidance addressing the risks associated with ADC
lending and funds management practices. For example, the FDIC issued FIL-22-2008,
Managing CRE Concentrations in a Challenging Environment, which reiterated broad
supervisory expectations with regard to managing risk associated with CRE and ADC
concentrations. Specifically, the guidance re-emphasized the importance of strong capital
and loan loss allowance levels and robust credit risk management practices. It also
articulated the FDIC’s concerns regarding the need for proper controls over interest
reserves used for ADC loans, stating that examiners have noted an inappropriate use of
interest reserves when the underlying real estate project is not performing as expected.

With respect to funds management practices, the FDIC has issued FIL-84-2008, entitled,
Liquidity Risk Management, which highlights the importance of contingency funding
plans in addressing relevant stress events and states that FDIC requirements governing the
acceptance, renewal, or roll-over of brokered deposits should be incorporated in those
plans.

Implementation of PCA

Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of
mandatory and discretionary supervisory actions pertaining to institutions at various
capital levels. The section requires regulators to take progressively more severe actions,
known as “prompt corrective actions,” as an institution’s capital level deteriorates. The
purpose of section 38 is to resolve the problems of insured depository institutions at the
least possible cost to the DIF. Part 325 of the FDIC Rules and Regulations, Capital
Maintenance, defines the capital measures used in determining the supervisory actions
that will be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans (CRP),
and for the issuance of directives and orders pursuant to section 38. The FDIC is required
to closely monitor the institution’s compliance with its CRP, mandatory restrictions
defined under section 38(e), and discretionary safeguards imposed by the FDIC (if any) to
determine if the purposes of PCA are being achieved.

The FDIC implemented supervisory actions that were consistent with relevant provisions
of PCA. Among other things, the FDIC generally notified the bank when its capital levels
fell into PCA capital categories below Adequately Capitalized, reviewed and monitored
the institution’s Call Report information, and conducted discussions with ASB’s
management regarding its efforts to raise needed capital. However, as discussed below,
the FDIC could have better addressed ASB’s failure to submit required capital restoration
plans.

Table 4 illustrates ASB’s capital levels relative to the PCA thresholds for Well Capitalized
institutions as reported in the bank’s Call Reports. A chronological description of the
changes in ASB’s capital categories and the FDIC’s implementation of PCA follow the
table.




                                             19
Table 4: ASB’s Capital Levels Relative to PCA Thresholds, 2009-2011

   Period Ended          Tier 1                                           PCA Capital Category
                        Leverage       Tier 1 Risk-    Total Risk-
                         Capital      Based Capital   Based Capital
 Well-Capitalized      5 percent or   6 percent or    10 percent or
 Thresholds               more           more             more
 ASB’s Capital Levels
      06/30/09             6.56           8.69            10.12       Well Capitalized
      09/30/09             5.69           7.91            9.34        Adequately Capitalized
      12/31/09             3.37           4.73            6.19        Undercapitalized
      03/31/10             3.65           4.70            6.16        Undercapitalized
      06/30/10             3.27           4.36            5.83        Undercapitalized
      09/30/10             3.14           4.02            5.49        Significantly Undercapitalized
      12/31/10             1.24           1.53            3.03        Critically Undercapitalized
      03/31/11             0.99           1.21            2.42        Critically Undercapitalized
Source: Call Reports for ASB.

ASB was considered Well Capitalized until the issuance of the joint C&D on
September 11, 2009. At that time, ASB fell to Adequately Capitalized because the C&D
contained a provision that required the bank to maintain a Tier 1 Capital ratio equal to or
greater than 8 percent of total assets and a Total Risk-Based Capital ratio equal to or
greater than 10 percent of total risk-weighted assets. As a result, pursuant to section 29 of
the FDIC Act, ASB could not accept, renew, or rollover any brokered deposits unless it
applied for, and the FDIC granted, a waiver. ASB’s management applied for a brokered
deposit waiver on September 8, 2009, but subsequently withdrew the application on
February 11, 2010.

Although not required by the C&D or PCA, ASB’s management submitted a Capital Plan
to the FDIC on December 11, 2009. The Capital Plan provided a chronological history of
the bank’s efforts to raise capital and included a 2-year capital projection based upon a
reduction in ASB’s total assets. The FDIC reviewed the plan and determined that it did
not establish a reasonable approach for reaching the minimum capital levels defined in the
C&D. The Capital Plan was never approved by the FDIC.

In a letter dated March 26, 2010, the FDIC notified ASB’s Board that the bank had fallen
to Undercapitalized based on the results of the February 8, 2010 examination. The letter
reminded the Board of restrictions imposed on Undercapitalized institutions, including
restrictions on capital distributions, management fees, asset growth, and acquisitions. The
letter also noted that the bank was required to file a CRP with the Regional Director
within 45 days of the date of receipt of the letter. However, ASB did not submit a CRP,
and we found no indication that the FDIC contacted ASB’s management regarding its
failure to submit a CRP.

Section 325.104(e) of the FDIC Rules and Regulations states that an Undercapitalized
bank that fails to submit a written CRP within 45 days shall be subject to all of the
provisions of section 38 and the corresponding FDIC PCA regulations that are applicable

                                                 20
to Significantly Undercapitalized institutions. Although the FDIC’s internal records
indicate that ASB was reclassified to Significantly Undercapitalized, the bank was not
formally notified of this change in its capital category at that time as prescribed by FDIC
policy.

In a letter dated November 8, 2010, the FDIC notified ASB’s Board that, based on the
September 30, 2010 Call Report, the bank was considered Significantly Undercapitalized.
In a letter dated March 3, 2011, the FDIC notified ASB’s Board that the bank was
considered Critically Undercapitalized based on the institution’s March 1, 2011 Call
Report filing for the quarter ended December 31, 2010. Neither of these letters requested
that the bank submit a CRP as prescribed by FDIC policy.

Additional notifications and follow-up with the bank would have provided another avenue
for ensuring the Board’s awareness of its responsibilities under section 38 to submit an
acceptable CRP. The FDIC did, however, implement various supervisory activities that
served to substantially mitigate the effect of ASB’s failure to submit a CRP. For example,
the FDIC reviewed the status of ASB’s capital-raising efforts described in the bank’s
quarterly progress reports required by the C&D. The FDIC also assessed the bank’s
capital position in examinations and visitations and corresponded with bank officials
regarding their capital-raising efforts.

ASB explored strategic alternatives for improving its capital position, such as:
(1) merging with another bank, (2) seeking new investors, and (3) selling its retail
branches. ASB’s management also applied for funds under the Capital Purchase Program,
but subsequently withdrew the application. ASB’s efforts to raise capital were ultimately
unsuccessful. The GDBF closed the bank on May 20, 2011 because ASB was unable to
raise sufficient capital to support its operations.


OIG Evaluation of Corporation Comments
The Director, RMS, provided a written response, dated December 16, 2011, to a draft of
this report. That response is provided in its entirety as Appendix 4 of this report. In the
response, RMS reiterated the causes of failure and the supervisory activities described in
the report. The response noted that the FDIC issued a FIL in 2008, entitled Managing
Commercial Real Estate Concentrations in a Challenging Environment, that re-
emphasized the importance of robust credit risk-management practices for institutions
with concentrated CRE exposures and set forth broad supervisory expectations.
Additionally, the response referenced a 2009 FIL, entitled The Use of Volatile or Special
Funding Sources by Financial Institutions That Are in a Weakened Condition, issued by
RMS to heighten its supervision of institutions with aggressive growth strategies or
excessive reliance on volatile funding sources. The response also stated that RMS is
committed to ensuring that institutions meet all PCA requirements.




                                             21
                                                                            Appendix 1

                   Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate Federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
by increasing the MLR threshold from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. The FDI Act requires that
the report be completed within 6 months after it becomes apparent that a material loss has
been incurred.

Our audit objectives were to (1) determine the causes of ASB’s failure and the resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of ASB, including the
FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit between August and November 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of ASB’s operations from January 2006 until
its failure in May 2011. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

      Analyzed examination and visitation reports prepared by the FDIC and the GDBF
       from November 2006 to August 2010.

      Reviewed the following:

           o Selected examination work papers prepared by the FDIC from 2006 to
             2010.

           o Bank data contained in UBPRs and Call Reports.

           o Correspondence in the Atlanta Regional Office and the Atlanta Field
             Office.


                                            22
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

           o Various other records prepared by the Division of Resolutions and
             Receiverships (DRR) and RMS relating to the bank’s closure.

           o Information in the FDIC’s Virtual Supervisory Information On the Net
             System.

           o Pertinent RMS policies, procedures, and guidelines, as well as applicable
             laws and regulations.

      Interviewed the following FDIC officials:

           o RMS regional managers from the Atlanta Regional Office.

           o RMS examiners from the Atlanta Field Office.

           o GDBF officials.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with our audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in the FDIC’s systems and
reports, and interviews of RMS and GDBF examiners, to obtain an understanding of
ASB’s management controls pertaining to the causes of failure and material loss as
discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination and visitation reports, correspondence files,
and testimonial evidence to corroborate data obtained from systems, which was used to
support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this MLR, we did not assess the strengths and weaknesses
of RMS’s annual performance plan in meeting the requirements of the Results Act
because such an assessment was not part of the audit objectives. RMS’s compliance with
the Results Act is reviewed in OIG program audits of RMS operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act and the FDIC Rules and

                                            23
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Regulations. The results of our tests were discussed, where appropriate, in the report.
Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions, and these reports can be
found at www.fdicig.gov. In addition, the OIG issued an audit report entitled, Follow-up
Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-010), in
December 2010. The objectives of the audit were to (1) determine the actions that the
FDIC has taken to enhance its supervision program since May 2009, including those
specifically in response to the May 2009 memorandum, and (2) identify trends and issues
that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, the OIGs of the FDIC,
the Department of the Treasury, and the Board of Governors of the Federal Reserve
System issued an evaluation report in September 2011, entitled, Evaluation of Prompt
Regulatory Action Implementation (Report No. EVAL-11-006), which assessed the role
and Federal regulators’ use of the Prompt Regulatory Action provisions of the FDI Act
(section 38, PCA, and section 39, Standards for Safety and Soundness) in the banking
crisis. Additionally, the FDIC OIG began an evaluation in July 2011 to study the
characteristics and related supervisory approaches that may have prevented FDIC-
supervised institutions with significant ADC loan concentrations from being designated
as problem banks or failing during the recent financial crisis. Finally, in September 2011,
the FDIC OIG initiated two evaluations related to the (1) issuance, termination, and
impact of risk management enforcement actions; and (2) policies and procedures
examiners use for evaluating appraisals and the adequacy of an institution’s ALLL.




                                            24
                                                                                    Appendix 2

                                  Glossary of Terms

     Term            Definition
Acquisition,     ADC loans are a component of CRE that provide funding for acquiring
Development, and and developing land for future construction and that provide interim
Construction     financing for residential or commercial structures.
(ADC) Loans
Adversely            Assets subject to criticism and/or comment in an examination report.
Classified Assets    Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for        The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease       the book value of loans and leases to the amount that is expected to be
Losses (ALLL)        collected. It is established in recognition that some loans in the
                     institution’s overall loan and lease portfolio will not be repaid. Boards of
                     Directors are responsible for ensuring that their institutions have controls
                     in place to consistently determine the allowance in accordance with the
                     institutions’ stated policies and procedures, generally accepted accounting
                     principles, and supervisory guidance.
Bank Board           A BBR is an informal commitment adopted by a financial institution’s
Resolution (BBR)     Board of Directors (often at the request of the FDIC) directing the
                     institution’s personnel to take corrective action regarding specific noted
                     deficiencies. A BBR may also be used as a tool to strengthen and monitor
                     the institution’s progress with regard to a particular component rating or
                     activity.
Call Report          Reports of Condition and Income, often referred to as Call Reports,
                     include basic financial data for insured commercial banks in the form of a
                     balance sheet, an income statement, and supporting schedules. According
                     to the Federal Financial Institutions Examination Council’s (FFIEC)
                     instructions for preparing Call Reports, national banks, state member
                     banks, and insured nonmember banks are required to submit a Call Report
                     to the FFIEC’s Central Data Repository (an Internet-based system used
                     for data collection) as of the close of business on the last day of each
                     calendar quarter.
Capital              Section 325.104(a)(1) of the FDIC Rules and Regulations requires a
Restoration Plan     bank to file a written CRP with the appropriate FDIC regional director
(CRP)                within 45 days of the date that the bank receives notice or is deemed to
                     have notice that the bank is Undercapitalized, Significantly
                     Undercapitalized, or Critically Undercapitalized, unless the FDIC notifies
                     the bank in writing that the plan is to be filed within a different period.

Cease and Desist     A C&D is a formal enforcement action issued by a financial institution
Order (C&D)          regulator to a bank or affiliated party to stop an unsafe or unsound
                     practice or a violation of laws and regulations. A C&D may be
                     terminated when the bank’s condition has significantly improved and the
                     action is no longer needed or the bank has materially complied with its
                     terms.



                                              25
                                                                                 Appendix 2
                               Glossary of Terms

Commercial Real    CRE loans include loans secured by multifamily property and nonfarm
Estate (CRE)       nonresidential property, where the primary source of repayment is derived
Loans              from rental income associated with the property or the proceeds of the
                   sale, refinancing, or permanent financing of the property. CRE loans also
                   include are land development and construction loans (including 1-to-4
                   family residential and commercial construction loans) and other land
                   loans.
Concentration      A concentration is a significantly large volume of economically related
                   assets that an institution has advanced or committed to a certain industry,
                   person, entity, or affiliated group. These assets may, in the aggregate,
                   present a substantial risk to the safety and soundness of the institution.

FDIC’s             The FDIC’s Supervision Program promotes the safety and soundness of
Supervision        FDIC-supervised institutions, protects consumers’ rights, and promotes
Program            community investment initiatives by FDIC-supervised institutions. The
                   FDIC’s RMS (1) performs examinations of FDIC-supervised institutions
                   to assess their overall financial condition, management policies and
                   practices (including internal control systems), and compliance with
                   applicable laws and regulations and (2) issues related guidance to
                   institutions and examiners.
Federal Home       The FHLB System provides liquidity to member institutions that hold
Loan Bank          mortgages in their portfolios and facilitates the financing of mortgages by
(FHLB)             making low-cost loans, called advances, to its members. Advances
Borrowings         (referred to as FHLB borrowings in this report) are funds that are
                   available to members with a wide variety of terms to maturity, from
                   overnight to long term, and are collateralized. Advances are designed to
                   prevent any possible loss to FHLBs, which also have a super lien (a lien
                   senior or superior to all current and future liens on a property or asset)
                   when institutions fail.
Global Cash Flow   A global cash flow analysis is a comprehensive evaluation of borrower
Analysis           capacity to perform on a loan. During underwriting, proper global cash
                   flow must thoroughly analyze projected cash flow and guarantor support.
                   Beyond the individual loan, global cash flow must consider all other
                   relevant factors, including: guarantor’s related debt at other financial
                   institutions, current and complete operating statements of all related
                   entities, and future economic conditions. In addition, global cash flow
                   analysis should be routinely conducted as a part of credit administration.
                   The extent and frequency of global cash flow analysis should be
                   commensurate to the amount of risk associated with the particular loan.

Interest Reserve   An interest reserve account allows a lender to periodically advance loan
Account            funds to pay interest charges on the outstanding balance of the loan. The
                   interest is capitalized and added to the loan balance. Frequently, ADC
                   loan budgets will include an interest reserve to carry the project from
                   origination to completion and may cover the project’s anticipated sellout
                   or lease-up period.




                                            26
                                                                                   Appendix 2
                                Glossary of Terms


Loan-to-Value       A ratio for a single loan and property calculated by dividing the total loan
                    amount at origination by the market value of the property securing the
                    credit plus any readily marketable collateral or other acceptable collateral.

Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                    Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                    period beginning January 1, 2010 and ending December 31, 2011, a
                    material loss is defined as any estimated loss in excess of $200 million.

Memorandum of       A Memorandum of Understanding is an informal agreement between the
Understanding       institution and the FDIC, which is signed by both parties. The State
(MOU)               Authority may also be party to the agreement. MOUs are designed to
                    address and correct identified weaknesses in an institution’s condition.

Nonaccrual          The status of an asset, often a loan, which is not earning the contractual
Status              rate of interest in the loan agreement, due to financial difficulties of the
                    borrower. Typically, interest accruals have been suspended because full
                    collection of principal is in doubt, or interest payments have not been
                    made for a sustained period of time. Loans with principal and interest
                    unpaid for at least 90 days are generally considered to be in a nonaccrual
                    status.

Off-site Review     The FDIC’s Off-site Review Program is designed to identify emerging
Program             supervisory concerns and potential problems so that supervisory strategies
                    can be adjusted appropriately. Off-site reviews are performed quarterly
                    for each bank that appears on the Off-site Review List. Regional
                    management is responsible for implementing procedures to ensure that
                    off-site review findings are factored into examination schedules and other
                    supervisory activities.
Peer Group          Institutions are assigned to 1 of 15 peer groups based on asset size,
                    number of branches, and whether the institution is located in a
                    metropolitan or non-metropolitan area.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq., implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section 1831(o),
                    by establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.




                                             27
                                                                                Appendix 2
                            Glossary of Terms


Risk-Based      A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital         Regulations. Under the risk-based framework, a bank’s qualifying total
                capital base consists of two types of capital elements, “core capital”
                (Tier 1) and “supplementary capital” (Tier 2).
Risk-Based      Appendix A to Part 325—Statement of Policy on Risk-Based Capital—
Capital Rules   defines the FDIC’s risk-based capital rules. Appendix A states that an
                institution’s balance sheet assets and credit equivalent amounts of off-
                balance sheet items are assigned to broad risk categories according to the
                obligor or, if relevant, the guarantor or the nature of the collateral. The
                aggregate dollar amount in each category is then multiplied by the risk
                weight assigned to that category. The resulting weighted values from
                each of the four risk categories are added together, and this sum is the
                risk-weighted assets total that, as adjusted, comprises the denominator of
                the risk-based capital ratio. The institution’s qualifying total capital base
                is the numerator of the ratio.

Tier 1 (Core)   Defined in Part 325 of the FDIC Rules and Regulations, 12 Code of
Capital         Federal Regulations, section 325.2(v), as
                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                undivided profits, disclosed capital reserves, foreign currency translation
                adjustments, less net unrealized losses on available-for-sale securities
                with readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4; and
                • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)   The report is produced by the FFIEC for the use of banking supervisors,
                bankers, and the general public and is produced quarterly from data
                reported in CALL Reports submitted by banks.
Uniform         Financial institution regulators and examiners use the UFIRS to evaluate a
Financial       bank’s performance in six components represented by the CAMELS
Institutions    acronym: Capital adequacy, Asset quality, Management practices,
Rating System   Earnings performance, Liquidity position, and Sensitivity to market risk.
(UFIRS)         Each component, and an overall composite score, is assigned a rating of 1
                through 5, with 1 having the least regulatory concern and 5 having the
                greatest concern.




                                          28
                                                              Appendix 3

                         Acronyms
ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ASB      Atlantic Southern Bank
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CRE      Commercial Real Estate
CRP      Capital Restoration Plan
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
FDI      Federal Deposit Insurance
FFIEC    Federal Financial Institutions Examination Council
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
GDBF     Georgia Department of Banking and Finance
LTV      Loan-to-Value
MLR      Material Loss Review
MOU      Memorandum of Understanding
OIG      Office of Inspector General
OREO     Other Real Estate Owned
PCA      Prompt Corrective Action
RMS      Division of Risk Management Supervision
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                              29
                                                                                        Appendix 4
                        Corporation Comments
    ___________________________________________________________________




    Federal Deposit Insurance Corporation
    550 17th Street NW, Washington, D.C. 20429-9990                             Division of Risk Management Supervision


                                                                                     December 16, 2011

    TO:                Stephen M. Beard
                       Deputy Inspector General for Audits and Evaluations

                      /Signed/
    FROM:             Sandra L. Thompson
                      Director

    SUBJECT:          FDIC Response to the Draft Audit Report Entitled, Material Loss Review of Atlantic
                      Southern Bank, Macon, Georgia (Assignment No. 2011-081)

    Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank
    Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s
    (FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of Atlantic Southern
    Bank (ASB), which failed on May 20, 2011. This memorandum is the response of the Division of
    Risk Management Supervision (RMS) to the OIG’s Draft Report received on November 15, 2011.

    ASB failed due to the Board’s and management’s inability to manage risks associated with its
    growth strategy centered on high concentrations of commercial real estate (CRE) and acquisition,
    development and construction (ADC) loans. ASB’s weak CRE/ADC underwriting and lax credit
    administration practices and monitoring also contributed to the deterioration in the quality of its
    loan portfolio resulting in substantial losses, negative earnings and depleted capital. ASB was
    unable to raise additional capital to maintain operations.

    From 2006 to 2010, the FDIC and the Georgia Department of Banking and Finance conducted four
    onsite risk management examinations, three onsite visitations and ongoing offsite monitoring. At
    the 2008 onsite visitation, examiners informed ASB Board members and executives that the increased
    level of classified loans and deficient earnings weakened ASB’s liquidity position. The visitation also
    revealed deterioration in all component ratings and ASB was downgraded. The 2009 examination noted
    further deterioration of CRE and ADC loans, and ASB’s heavy reliance on non-core funding, including
    brokered deposits and Federal Home Loan Bank borrowings. Examiners downgraded ASB and issued a
    Cease and Desist Order. In 2010 examiners noted continued deteriorating conditions characterized by
    critically deficient asset quality, significant losses and an erosion of capital and further downgraded ASB.

    RMS has recognized the threat that institutions with high risk profiles, such as ASB, pose to the Deposit
    Insurance Fund and issued to FDIC-supervised institutions in 2008 Financial Institution Letter (FIL)-22-2008
    entitled, Managing Commercial Real Estate Concentrations in a Challenging Environment. This FIL
    re-emphasized the importance of robust credit risk-management practices for institutions with concentrated
    CRE exposures and set forth broad supervisory expectations. Additionally, RMS issued in 2009 FIL-13-2009
    entitled, The Use of Volatile or Special Funding Sources by Financial Institutions That Are in a Weakened
    Condition. This FIL heightened our supervision of institutions with aggressive growth strategies or excessive
    reliance on volatile funding sources. With respect to our responsibilities under Prompt Corrective Action (PCA),
    RMS is committed to ensuring that institutions meet all PCA requirements.

    Thank you for the opportunity to review and comment on the Report.
.



                                                          30
